Memorandum from the Office of the Inspector General



September 12, 2007

John E. Long, Jr., WT 7B-K

FINAL REPORT – INSPECTION 2007-11096 – REVIEW TO ENSURE NEW HIRES
MEET PHYSICAL JOB REQUIREMENTS



As discussed with you, we included in our Fiscal Year (FY) 2007 Inspection Plan a review
to assess the procedures in place to ensure that new hires meet physical job
requirements. In summary, we found TVA does have a policy in place that requires all
new hires to have a medical screening before starting work (i.e., preplacement exam).
However, the TVA Medical Examiner’s Guide and Health and Safety Practice 1,
Occupational Health, do not specify (1) who is responsible for providing examiners with
job descriptions to be used in their examination and (2) that examiners are required to
utilize the job description information in conducting their physical job requirement
evaluation.

We were advised of a few instances where management believed, in hindsight, that new
hires did not meet their physical job requirements which could indicate that job
descriptions may not be considered in all examinations.1 Therefore, you may want to
consider (1) strengthening the TVA Medical Examiner’s Guide and/or Health and Safety
Practice 1, Occupational Health, by specifying (a) who is responsible for providing
examiners with job descriptions and (b) that examiners should consider job description
elements in their evaluation; and (2) reemphasize the roles and responsibilities that
supervisors/managers and medical examiners have in ensuring new hires meet physical
job requirements.

BACKGROUND

According to TVA policy, all individuals who have accepted offers of TVA employment, or
reemployment, are required to have medical evaluations. Several jobs at TVA require the
applicant to be able to meet certain physical requirements. Examples of some of the
standard requirements, which may have to be performed at various levels of proficiency,
include (1) balancing; (2) bending; (3) lifting; (4) pushing/pulling; and (5) climbing. In
addition to these standard physical requirements that may be addressed in the job
description, there are 16 special medical clearances that can be requested on the TVA
Form 1444 that require specific medical tests.

1
    TVA does not track the number of instances where new hires do not meet job requirements.
John E. Long, Jr.
Page 2
September 12, 2007



According to Health and Safety Practice 1, Occupational Health, “TVA has established,
through Occupational Health, policies and procedures for assessing medical,
psychological, or behavioral conditions. TVA medical examiners and consulting clinicians
define the content of all TVA medical examinations based upon regulatory requirements,
industry standard practice, federal laws, and standard medical practice for the assigned
job duties.” Occupational Health is responsible for developing and maintaining standards
for TVA medical examinations and publishing them in the TVA Medical Examiner's Guide.
The TVA Medical Examiner’s Guide was developed to promote proper placement of TVA
employees and employment candidates with respect to their health capacity, type work,
and particular assignment. Such evaluations are intended to assess work capacity and
encourage both the safety and productivity of the individuals and coworkers.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the process and control activities used to ensure potential
hires meet physical job requirements. The scope of our review was limited to the pre-
employment medical examination process conducted for job applicants. Our objective
was to assess the process and control activities used to ensure potential hires meet
physical job requirements. The scope of our review was limited to the pre-employment
medical examination process conducted for job applicants. To achieve our objective, we:

•   Interviewed Human Resources (HR) personnel to identify any issues regarding the
    physical qualifications of new hires and the process and controls in place to ensure
    applicants meet physical job requirements.
•   Interviewed Occupational Health personnel to identify guidance given to medical
    providers regarding pre-employment examinations and the need to determine if
    applicants satisfy physical requirements defined in the job description.
•   Reviewed applicable TVA policies and procedures to identify key control activities and
    determine areas of responsibility related to pre-employment examinations and
    communication of examination requirements with medical providers.

OBSERVATIONS

We found that (1) all individuals who have accepted offers of TVA employment or
reemployment are required to have medical evaluations, and (2) policies and procedures
should ensure that new hires meet physical job requirements if the medical examiners are
provided and utilize adequate job duty information. However, the TVA Medical Examiner’s
Guide and Health and Safety Practice 1, Occupational Health, do not specify (1) who is
responsible for providing examiners with job descriptions to be used in their examination
and (2) that examiners are required to utilize the job description information in conducting
their physical job requirement evaluation. We were advised of a few instances where
management believed, in hindsight, that new hires did not meet their physical job
requirements which could indicate that job descriptions may not be considered in all
examinations.
John E. Long, Jr.
Page 3
September 12, 2007



In order to assess an individual’s suitability, Health and Safety Practice 1, Occupational
Health, directs supervisors and/or HR representatives to prepare a Form TVA 1444,
Request for Medical Evaluation, to request medical exams and other clinical services. In
addition, it states that TVA utilizes a combination of on-site medical offices, off-site
contracted medical providers, and mobile health clinics for delivery of preplacement
services. It goes on to give responsibility for the final determination of ‘Medical Disposition
for Duty’ to TVA medical examiners (including contracted physicians). According to the
Manager, Health Services, in order to determine the necessary examination items, the
medical provider initially reviews the job description associated with the provided Form
TVA 1444. If the medical provider is not familiar with the requirements of the specific job,
he/she may contact the New Hire Team for the specific elements to test. The Manager,
Health Services, also noted that the medical provider may consult the Medical Examiner’s
Guide for job specific requirements.

The preplacement examination consists of (1) a medical history questionnaire completed
by the individuals who have accepted TVA offers of employment or reemployment; (2) any
or all of 16 physical examination items that are assessed based on specific requirements,
available resources, and other considerations; and (3) up to 14 laboratory test items. The
results of the physical examination are recorded on the Form TVA 9080, and the results of
the laboratory test items are recorded on the Form TVA 9082. Both of these are filed in
the employee’s TVA medical record.

TVA policies and procedures prescribe that once the examination is complete, the medical
provider will determine if the applicant is (1) approved, (2) not approved, (3) pending, or
(4) conditional. If the medical provider marks ‘pending,’ more medical information is
needed for a final determination to be made. If the medical provider marks ‘conditional,’
the applicant may be able to perform the job with specific limitations noted by the provider.
When stringent medical constraints are imposed or when there is some uncertainty about
an applicant’s ability to perform a certain type of work, the medical examiner must inform
the appropriate HR consultant or supervisor during or immediately after the examination to
resolve any question that may arise concerning the applicant’s health status or work
capacity.

Responsible TVA physicians define the content and review the results of all medical
examinations and/or evaluations for TVA employment and determine the medical
disposition of examinees for work, according to the TVA Medical Examiner’s Guide. While
we noted no specific guidance indicating that any functional tests should be performed to
determine if an applicant meets the standard physical requirements, the TVA Medical
Examiner’s Guide provided recommended wording for any medical constraints associated
with these requirements.

SUGGESTIONS

We suggest that you consider (1) strengthening the TVA Medical Examiner’s Guide and/or
Health and Safety Practice 1, Occupational Health, by specifying (a) who is responsible for
providing examiners with job descriptions and (b) that examiners should consider job
John E. Long, Jr.
Page 4
September 12, 2007



description elements in their evaluation; and (2) reemphasize the roles and responsibilities
that supervisors/managers and medical examiners have in ensuring new hires meet
physical job requirements.

                      -       -      -       -      -       -      -

If you have any questions or wish to discuss our observations, please contact
Rick C. Underwood, Project Manager, at (423) 751-3108 or Gregory C. Jaynes, Deputy
Assistant Inspector General, Inspections, at (423) 751-7821. We appreciate the courtesy
and cooperation received from your staff during the inspection.




Ben R. Wagner
Deputy Inspector General
ET 3C-K

HRK:BKA
cc: Tom D. Kilgore, WT 7B-K
    Richard W. Moore, ET 4C-K
    Emily J. Reynolds, OCP 1L-NST
    Phillip L. Reynolds, LP 3A-C
    Scott W. Tiemeyer, BR 3D-C
    OIG File No. 2007-11096
